                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

Case Number: 1-03-07-0031                                                                         Page 1 of 1


        i
        ~ ~ o m ~ l a i n aalleged
                            n t ' irregularities in effort reporting and cost sharing in conjunction with NSF
        grant No.                   awarded to the a ~ a r d e e . ~

            Investigation disclosed that during a site visit to the awardee in       NSF's Cost Analysis
            and Audit Resolution Branch (CAAR) discovered that the awardee had not been completing
            effort reports in compliance with OPM circular A-122 and had not submitted its cost sharing3
            certification. Subsequently, with guidance from CAAR, the awardee refined their effort reports
            and certified it had achieved its cost sharing commitments.

            An OIG visit to the awardee confirmed that its effort reports were brought up to compliance with
            A-122. During the visit it was discovered that some of the salaried positions charged against cost
            sharing were different positions than in the original proposal. The awardee satisfactorilyjustified
            why the positions were necessary for the accomplishment of the award. It was noted that in the
            awardee's cost sharing certification, the awardee included a 10% indirect cost figure
            notwithstanding the award letter notifjrlng the awardee that "...indirect costs associated with this
            pi-oject will not be reimbursed by NSF." Coordination with NSF's Division of Grants and
            ~ g r e e m e n trevealed
                             s~       that this awardee could appropriately include indirect costs as part of its
            cost sharing commitment. The visit also revealed initial concerns with program income.
            Specifically, the awardee received approximately $15,800 in income from the sale of catalogs
            and lectures. Investigation disclosed that all of the program income went back into the NSF
            funded project.

            Inilight of the above, no fiuther investigative effort is necessary in this matter.

            Accordingly, this case is closed.
                                                                                                                    Il




                                                                                                                    UI
VSF OIG Fonn 2 (11/02)
